@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-46
UNITED STATES PATENT AND
TRADEMARK OFFICE, et al.,
Petitioners,
v.
BOOKING.COM B.V.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF COALITION OF
-COM BRAND OWNERS AS AMICI CURIAE IN SUPPORT OF RESPONDENT in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 7991 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 19th day of February, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
cet Hes 0 Clit Qudiwh, Chl
My Commission Expires Nov 24, 2020 5 .

Notary Public Affiant 39484

 
